September 3, 2008

PAUL E. VOGEL
SENIOR VICE PRESIDENT AND MANAGING DIRECTOR, GLOBAL BUSINESS

ROSS PHILO
EXECUTIVE VICE PRESIDENT AND CHIEF INFORMATION OFFICER

SUBJECT: Audit Report – Miami International Service Center – Inbound
         International Mail (Report Number FT-AR-08-012)

This report presents issues concerning inbound international mail volumes at the Miami
International Service Center (ISC). We identified these issues during our audit of the
fiscal year (FY) 2008 Postal Service Financial Statements – St. Louis Information
Technology and Accounting Service Center (IT/ASC) (Project Number
08BM001FT002). This audit addresses the financial risk associated with not recording
revenue. Click here to go to Appendix A for additional information about this audit.

Conclusion

Volume data used to bill foreign postal administrations (FPA) for inbound international
letter class and Parcel Post® mail at the Miami ISC was accurate. However, volume
data used to bill FPAs for inbound international Express Mail® service was not always
accurate.

International Express Mail Billing Data

Data used to bill FPAs for inbound international Express Mail service was not complete.
Based on Express Mail billing data analyzed for the Miami ISC for the period October 1
to December 31, 2007, we determined that 1,058 manually entered dispatches1 were
not billed to the FPAs.

This occurred because the new Receipt Application2 did not always capture necessary
scanned data from Express Mail dispatches. Specifically, Postal Service employees
stated that initial system requirements for the Receipt Application did not include the
need to capture the dispatch date. Without the dispatch date, the dispatch data

1
 At the time of our review, there were a total of 1,413 dispatches in the billing data.
2
 The Receipt Application is a web-based application that replaced the Receipt Verification System (RVS) for initial
scanning of inbound mail. The application was first deployed at the Miami and Chicago ISCs on October 9 and
October 27, 2007, respectively. The Postal Service is gradually deploying it at other ISCs.
Miami International Service Center                                                                    FT-AR-08-012
 Inbound International Mail


captured by the Receipt Application were incomplete; therefore, the records were invalid
when the data was transmitted to the St. Louis International Accounting Branch (IAB) for
billing.

Prior to our audit, management directed Miami ISC record unit clerks to manually enter
Express Mail dispatch data, including the dispatch date, so the invalid dispatches would
be billed. However, once the manually entered data was electronically transmitted to
the St. Louis Integrated Business Systems Solution Center (IBSSC) for billing, the
computer program used to prepare billing data for inbound international Express Mail
did not capture these manually entered dispatches to include them in the billing
statements.

As a result, the Postal Service under billed foreign countries for processing and delivery
of inbound international Express Mail items by $2,084,620 for the period October 9 to
December 31, 2007. Click here to go to Appendix B for our detailed analysis of this
topic.

Management stated that effective February 11, 2008, they made software changes to
the Receipt Application, to allow the dispatch date to be manually entered into the
application. Also, after this change, management verified that personnel at the
receiving unit were able to enter the dispatch date when scanning data from mail
receptacles from non-Electronic Data Interchange (EDI) countries,3 and they noted a
significant improvement in the billing data captured by the Receipt Application.

Further, the IBSSC updated the records on April 28, 2008, to include the manually
entered data in the billing. On May 29, 2008, the St. Louis IAB issued a supplemental
billing to FPAs that included all dispatches manually entered at both Miami and Chicago
ISCs for October through December 2007. The first quarter supplemental billing was
approximately $2.1 million.

This issue affected Express Mail data from the Miami and Chicago ISCs only after the
Receipt Application was implemented, but before the International Reconciliation
System (IRS) was implemented on February 1, 2008. Therefore, this issue does not
affect future billing periods.4

Because of the corrective actions taken, we are not making any recommendations at
this time. However, we will continue to monitor this area during future audit work.



3
  EDI countries provide electronic data to the Postal Service before mail arrives at the ISCs. EDI data contains
dispatch information, including dispatch date, and is pre-populated into the Receipt Application upon receipt.
Therefore, when the clerks at the receiving unit scan the EDI mail receptacles through the Receipt Application, the
scan would retrieve EDI data and associate the receptacle to the EDI dispatch date. Non-EDI countries do not send
an EDI message, so the clerk must enter dispatch date when scanning the mail receptacle.
4
  January 2008 Express Mail data was included in the second quarter billing, and the issue was corrected before the
billing was issued.




                                                         2
Miami International Service Center                                            FT-AR-08-012
 Inbound International Mail


We will report the $2,084,620 of under billing as recoverable revenue loss5 in our
Semiannual Report to Congress. Click here to go to Appendix D for our calculation of
under billed amounts.

We did not make any recommendations in this report and, therefore, management
chose not to submit a formal response. However, management agreed with the
monetary impact and did not identify any information that should be exempt under the
Freedom of Information Act.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:        H. Glen Walker
           Lynn Malcolm
           Vincent H. DeVito, Jr.
           Benjamin Vidal
           Katherine S. Banks




5
    Revenue that can be collected for goods delivered or services rendered.




                                                           3
Miami International Service Center                                                                       FT-AR-08-012
 Inbound International Mail


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Inbound international mail or dispatch is foreign-originating mail destined for delivery in
the United States. FPAs pay the Postal Service terminal dues for sorting and
dispatching international mail at ISCs. Currently, five ISCs in New York, Miami,
Chicago, Los Angeles, and San Francisco process inbound international mail.

When inbound international mail dispatches arrive at the Miami ISC, employees move
them to receiving terminals for scanning. A mail dispatch may contain more than one
receptacle;6 and each receptacle has an attached label generated by the country of
origin, called an Airmail Bag Label (CN35). ISC personnel scan CN35s through the new
Receipt Application to capture receptacle information, including origin country and city,
destination country and city, type of mail, dispatch number, receptacle number, and
receptacle weight.

For Express Mail items, after Miami ISC personnel scan data from the CN35 labels in
receptacles to the Receipt Application, they move the receptacles to the Express Mail
unit for additional scanning to capture the piece count. Employees in the Express Mail
unit use hand-held scanners to scan the CN35 labels again, then open the receptacles
and scan each mailpiece in the receptacle. These scans associate the individual
mailpieces to the receptacle-level data that was captured a few minutes earlier by the
Receipt Application. The scanned data for Express Mail items processed from October
through December 2007 was stored in the IRS.7

The St. Louis IAB bills foreign countries quarterly, based on piece count and weight.8
Express Mail data in the IRS is electronically transmitted to the IAB and St. Louis
IBSSC, which prepare the data for billing. Using this data, which is maintained on the
international web-based application, employees at the Eagan IT/ASC generate, print,
and mail9 quarterly Express Mail billing reports to the IAB for distribution to the FPAs.

For inbound international Parcel Post and letter class mail, employees in the Miami ISC
record unit manually enter Parcel Post and letter class billing data10 from the source

6
  Receptacles include trays, sacks, and boxes that usually contain more than one mailpiece.
7
  Before the IRS was fully implemented in February 2008, it was used as a batch processing system to store Express
Mail scanned data. Prior to the IRS, the Express Mail data was stored in the Military and International Dispatch
Accounting System (MIDAS).
8
  For Express Mail, all countries are billed based on piece count and weight, except for countries under the
Pay-For-Performance program (PFP), which links Express Mail payments to the quality of service provided. As of
May 2008, 37 countries were in this program.
9
  Eagan has large-scale printers capable of handling the size of these billing reports, so they are printed at the Eagan
IT/ASC and mailed to the St. Louis IT/ASC.
10
   Inbound Parcel Post billing data consists of dispatch weight and piece count. Inbound letter class data consists of
the dispatch weight. It may also include the weight or number of pieces of additional letter class categories, such as
International Business Reply Service (IBRS) or Registered Mail. These categories generate additional revenue for
the Postal Service.




                                                           4
Miami International Service Center                                                                      FT-AR-08-012
 Inbound International Mail


documents11 into the international web-based application.12 IAB personnel also enter
Parcel Post and letter class mail weight and piece rates, as published by the Universal
Postal Union, into the international web-based application. The IAB and IBSSC use
data from this application to prepare the billing data. As with the Express Mail billing
process, employees at the Eagan IT/ASC generate, print, and mail quarterly and yearly
billing reports to the St. Louis IAB for distribution to the FPAs.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this part of our audit of the FY 2008 Postal Service Financial
Statements – St. Louis IT/ASC was to determine whether volume data used to bill FPAs
for inbound international mail were accurate.13 We selected the Miami ISC based on
both the length of time since our last visit and because it was the first site to implement
the Receipt Application.

To accomplish our objective, we traced billing data recorded in the international
web-based application to inbound international letter class and Parcel Post source
documents, using unrestricted random samples of 152 and 129 items, respectively.
Click here to go to Appendix C for our statistical analysis of letter class and Parcel Post
mail. For our review of inbound international Express Mail, we used billing data
originally stored in the IRS and generated a random sample of 10 items. Based on the
results of our analysis of these sampled items, we expanded our review to analyze the
Express Mail billing data for all 1,413 dispatches at the Miami ISC from October through
December 2007. Of the 1,413 dispatches, we focused on 1,058 dispatches that were
manually entered and tested a randomly selected sample of 50 dispatches. The
universe of transactions for all mail types was from October 1 through December 31,
2007.

We conducted this audit from March through September 2008 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusion based on our audit objective. We interviewed personnel from the
Miami ISC, the St. Louis IBSSC, and the St. Louis IAB. We discussed our observations
and conclusions with management officials on August 13, 2008, and included their
comments where appropriate.




11
   Source documents include Form CN31, Letter Bill, for letter mail; Form CP86, Parcel Bill, for surface Parcel Post;
and Form CP87, Air Parcel Bill, for air Parcel Post. All of these documents come from the country of origin.
12
   This process was applicable only through February 1, 2008, when the IRS was implemented. After that date,
record unit personnel entered data directly into the IRS.
13
   International mail volumes consist of piece count and weight.




                                                           5
Miami International Service Center                                               FT-AR-08-012
 Inbound International Mail


We relied on computer-generated data from the international web-based application.
We performed specific internal control and transaction tests on this application to
assess the reliability of the data. For example, we traced selected information on
inbound international mail volumes to supporting source documents. We were
generally able to rely on the data in this application, except for data related to inbound
Express Mail volume.

PRIOR AUDIT COVERAGE



                        Report       Final Report       Monetary
Report Title            Number           Date            Impact              Report Results
Fiscal Year           FT-AR-03-008   January 30, 2003       N/A        We identified discrepancies
2002 Postal                                                            between information entered
Service                                                                into the MIDAS and manifests
Financial                                                              of inbound international
Statements                                                             Express Mail and Coventry
Audit – St. Louis                                                      upgraded parcels.
Information
Technology and
Accounting
Service Center
J.T. Weeker           FT-AR-06-013   March 22, 2006         $147,729   Inbound international mail
(Chicago) ISC –                                                        volumes were not always
Inbound                                                                accurate and internal controls
International                                                          for recording inbound
Mail                                                                   international mail at the J.T.
                                                                       Weeker (Chicago) ISC needed
                                                                       strengthening. Specifically, we
                                                                       identified a high number of
                                                                       discrepancies between
                                                                       supporting documents and
                                                                       billing data for Express Mail,
                                                                       upgraded Parcel, and Parcel
                                                                       Post.
San Francisco         FT-AR-07-012   March 30, 2007         $922,478   Inbound international mail
ISC – Inbound                                                          volumes used to bill FPAs
International                                                          were not always accurate, and
Mail                                                                   internal controls for recording
                                                                       inbound international mail at
                                                                       the San Francisco ISC record
                                                                       unit needed strengthening.
                                                                       Specifically, personnel did not
                                                                       enter letter class documents
                                                                       into the system in a timely
                                                                       manner and did not retain
                                                                       Express Mail documentation as
                                                                       required. In addition, we
                                                                       identified a high number of
                                                                       discrepancies between




                                              6
Miami International Service Center                                              FT-AR-08-012
 Inbound International Mail


                                                                      supporting documents and the
                                                                      RVS scanned data used for
                                                                      billing.
New York ISC –        FT-AR-08-005   January 24, 2008   $13,700,604   Volume data used to bill FPAs
Inbound                                                               for inbound Express Mail and
International                                                         letter class mail was not
Mail                                                                  always accurate. Specifically,
                                                                      we identified a significant
                                                                      number of discrepancies in the
                                                                      Express Mail samples (97
                                                                      errors in the sample of 120
                                                                      China dispatches and 57 errors
                                                                      in the sample of 78 dispatches
                                                                      from all other countries). For
                                                                      letter class mail, we found
                                                                      errors in 25 of 156 items
                                                                      reviewed.




                                              7
Miami International Service Center                                                                  FT-AR-08-012
 Inbound International Mail


            APPENDIX B: INTERNATIONAL EXPRESS MAIL BILLING DATA

Data used to bill FPAs for inbound international Express Mail service were not
complete. Based on Express Mail billing data analyzed for the Miami ISC for the period
October 1 to December 31, 2007, we determined that 1,058 manually entered
dispatches were not billed.14

This occurred because the new Receipt Application did not always capture scanned
data from Express Mail dispatches. Specifically, according to Postal Service personnel,
initial system requirements for the new Receipt Application did not include the need to
capture the dispatch date. Therefore, receiving employees at the Miami ISC did not
have the option of entering dispatch date information when scanning mail receptacles
received from non-EDI countries. Without a dispatch date, the dispatch data captured
by the Receipt Application was invalid for billing.

Prior to our audit, management recognized the problem and, in an effort to complete the
data for billing, directed the Miami ISC record unit clerks to manually enter Express Mail
dispatch data, including the dispatch date, piece count, and gross weight, into the
international web-based application so that the invalid dispatches would be billed.
However, after the data were electronically transmitted to the St. Louis IBSSC for billing,
the computer program used to prepare inbound Express Mail billing data did not capture
these manually entered dispatches to include them in the billing statements.
Specifically:

    •   For dispatches that were successfully scanned through the Receipt Application,
        the scanned data were stored in the “Actual” weight and piece count data fields.
        However, for manually entered dispatches, the data were inadvertently stored in
        the “Plan” weight and piece count data fields.

    •   The IBSSC billing program extracted data only from the “Actual” weight and
        piece count data fields (scanned data) for billing.

    •   IBSSC employees did not know the manually entered data were stored as “Plan”
        data; therefore, they did not include the data for billing.15

Internal control standards require management to establish and maintain an adequate
internal control structure that provides reasonable assurance that controls over financial
reporting are in place and operating effectively and efficiently. All financial statement




14
   With regard to the 10 randomly selected Express Mail items reviewed, 2 of 10 were in error. While this is a high
rate when considering the sample, it is not significant to the finding.
15
   To verify, we tested a sample of 50 of 1,058 manual dispatches and confirmed that the manual dispatches were not
billed in the original billing statement issued in March 2008.




                                                        8
Miami International Service Center                                                                     FT-AR-08-012
 Inbound International Mail


line items and supporting transactions that result in the line items should be maintained
accurately and in a timely manner in accordance with Generally Accepted Accounting
Principles.

Because the manually entered dispatches were not included in billing statements, the
Postal Service under billed foreign countries for processing and delivery of inbound
international Express Mail items for the period October 9 through December 31, 2007.16

IAB and IBSSC personnel stated that when analyzing billing data to prepare for the
initial billing, they were aware that a problem existed with the billing data because the
billing amounts seemed low. However, at the time of our audit, they had not yet
determined that the computer program was not capturing the manually entered
dispatches. When we notified the IAB and IBSSC, the IAB stated it planned to issue a
supplemental billing to the FPAs after Miami ISC personnel finished entering all the
dispatches into system. The IAB also stated that the Chicago ISC experienced the
same issue during this period. However, at the time of our audit, the Chicago record
unit personnel had not begun manually entering these dispatches into the system.

The IBSSC updated the records on April 28, 2008, to include the manually entered data
in the billing. In addition, on May 21, 2008, the Miami and Chicago ISCs completed
entering the Express Mail dispatches into the system for the October through December
2007 period. Further, after personnel in the Miami and Chicago ISCs completed the
manual entries for all dispatches, the St. Louis IAB issued the supplemental billing to
FPAs on May 29, 2008, to include all dispatches manually entered by both Miami and
Chicago ISCs for October through December 2007. The supplemental billing was
approximately $2.1 million.17

Management stated that effective February 11, 2008, they made software changes to
the Receipt Application, to allow the dispatch date to be manually entered into the
application. Also, after this change, management verified that personnel at the
receiving unit were able to enter the dispatch date when scanning data from mail
receptacles from non-EDI countries, and they noted a significant improvement in the
billing data captured by the Receipt Application.




16
   The 1,413 dispatches analyzed were already in the system at the time of our audit. Miami ISC personnel had not
yet entered additional dispatches into the international web-based application; these dispatches would increase the
amount not billed.
17
   This issue only affected Express Mail data from the Miami and Chicago ISCs after the implementation of the
Receipt Application, but before the IRS was implemented on February 1, 2008. Therefore this issue does not affect
future billing periods. January 2008 Express Mail data was included in the second quarter billing, and the issue was
corrected prior to issuance of that billing.




                                                          9
Miami International Service Center                                                                 FT-AR-08-012
 Inbound International Mail


              APPENDIX C: STATISTICAL SAMPLING AND PROJECTIONS
                   FOR LETTER CLASS AND PARCEL POST MAIL

In support of our objective, the audit team employed a random sample for two mail
types: letter class/other mail (Form CN31, Letter Bill) and Parcel Post (Forms CP86,
Parcel Bill, and CP87, Air Parcel Bill). The sample design allows statistical projection of
the number of mail records with errors. We present separate projections for these
samples.

The U.S. Postal Service Office of Inspector General (OIG) Computer Assisted
Assessment Techniques team obtained the audit universe from the St. Louis IAB
databases for inbound international mail. The audit universe consisted of
5,982 inbound international mail records at the Miami ISC for the period from October 1
through December 31, 2007:
    • Letter class/other: 3,672 records
    • Parcel Post: 2,310 records

We used unrestricted random sampling of records for the letter class/other and Parcel
Post mail types. We based our sample sizes on a desired 90 percent confidence level
and error rates observed in prior audit work at the Chicago, San Francisco, and New
York ISC Record Units.18 Our sample sizes by mail type are shown below.

                                                            Sample       Number        Upper Bound on
                Mail Type                    Universe
                                                             Size        of Errors      the Error Rate
 Letter Class/Others (Form CN31)               3,672          152            6            6.75 percent

 Parcel Post (Forms CP86 & CP87)               2,310          129            4            6.02 percent


Statistical Projections of the Sample Data

We used the Department of Health and Human Services OIG Rat Stats program,
version 2, Unrestricted Attribute Appraisal, to estimate the upper bounds on the error
rates. 




18
  J.T. Weeker (Chicago) International Service Center - Inbound International Mail (Report Number FT-AR-06-013,
dated March 22, 2006); San Francisco International Service Center - Inbound International Mail (Report Number
FT-AR-07-012, dated March 30, 2007); and New York International Service Center - Inbound International Mail
(Report Number FT-AR-08-005, dated January 24, 2008).




                                                       10
Miami International Service Center                                         FT-AR-08-012
 Inbound International Mail


Results

Letter Class/Other Mail: Based on the sample results, we project an upper bound on
the error rate of 6.75 percent at a 90 percent confidence level.

Parcel Post Mail: Based on the sample results, we project an upper bound on the error
rate of 6.02 percent at a 90 percent confidence level.




                                          11
Miami International Service Center                                                                  FT-AR-08-012
 Inbound International Mail


          APPENDIX D: CALCULATION OF RECOVERABLE REVENUE LOSS
                            FOR EXPRESS MAIL

We used the IAB supplemental billing report issued on May 29, 2008, to determine the
monetary impact. This report included supplemental billing information for Express Mail
dispatches from the Miami and Chicago ISCs for October through December 2007.
However, the report provided only weight and piece count data. Therefore, we applied
the rate per kilogram and rate per piece to the net weight and net piece count to
calculate the Special Drawing Rights (SDR)19 amount, and then applied the SDR
conversion rate on the billing dated May 29, 2008, to calculate the dollar amount.

In this calculation, we excluded countries under the PFP program because billings to
these countries were processed differently and were not affected by the Express Mail
billing issue we identified.

In addition, we excluded five countries where the dispatches were not handled by the
Miami ISC or the Chicago ISC (the Office of Destination was not MIA or ORD). These
dispatches were processed by other ISCs, and although they were included in the
supplemental billing report, they were not related to this Express Mail issue. We
referred to these countries as “Not MIA/ORD Countries.”

                Calculation for Weight                               Calculation for Piece Count
                Formulas                  Amount                         Formulas                      Amount

 Total Weight* (in kilogram)             607,290.01       Total Pieces*                                  205,005
 - Exclude PFP countries *               -74,920.96       - Exclude PFP countries*                       -35,688
 - Exclude “Not MIA/ORD Countries” *          -83.50      - Exclude ”Not MIA/ORD countries” *                -133
 = Net weight                            532,285.55       = Net piece count                              169,184

 × Rate per kilogram                             1.3      × Rate per piece                                    3.5
 = SDR amount                               691,971       = SDR amount                                   592,144
 × SDR conversion rate                      1.62339       × SDR conversion rate                          1.62339
 = Dollar Amount                         $1,123,339       = Dollar Amount                               $961,281


 Total Supplemental Amount               $2,084,620


* We obtained weight and piece count data from the IAB supplemental billing report dated May 29, 2008.




19
  Special Drawing Rights is a monetary unit established by the International Monetary Fund and used by the
Universal Postal Union.




                                                        12
